<html>
<title> - GPO</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   GPO--ISSUES AND CHALLENGES: HOW WILL GPO TRANSITION TO THE FUTURE?

=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                  Held in Washington, DC, May 11, 2011

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
67-450                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida

                           Professional Staff

                      Philip Kiko, Staff Director
                  Jamie Fleet, Minority Staff Director


   GPO--ISSUES AND CHALLENGES: HOW WILL GPO TRANSITION TO THE FUTURE?

                        WEDNESDAY, MAY 11, 2011

                              ----------                              

                  House of Representatives,
                         Subcommittee on Oversight,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:30 p.m., in 
Room 210, Cannon House Office Building, Hon. Phil Gingrey 
(chairman of the subcommittee) presiding.
    Present: Representatives Gingrey, Nugent, and Gonzalez.
    Staff Present: Peter Schaelstock, Deputy General Counsel; 
Kimani Little, Parliamentarian; Joe Wallace, Legislative Clerk; 
Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Linda Ulrich, Director of Oversight; 
Dominic Storelli, Oversight Staff; Reynold Schweickhardt, 
Oversight Staff; Jamie Fleet, Minority Staff Director; Kyle 
Andersen, Minority Press Secretary; Matt Defreitas, Minority 
Professional Staff; Khalil Abboud, Minority Elections Staff; 
and Mike Harrison, Minority Professional Staff.
    Mr. Gingrey. I now call to order the Committee on House 
Administration's Subcommittee on Oversight for today's 
oversight hearing on the Government Printing Office, the GPO. 
The hearing record will remain open for 5 legislative days so 
that Members may submit any materials that they wish to be 
included therein. A quorum is present so we may proceed.
    The Subcommittee on Oversight has the important task of 
conducting vigorous and effective oversight of our legislative 
and House-related agencies and their operations.
    One such agency, the Government Printing Office, is a 
historic and proud institution that has served this Nation well 
over its 150 years as the printer of record for Congress and 
the Federal Government. Its decades long service throughout our 
history is a testament to its employees, its institutional 
values, and its commitment to our commonly held dedication to 
making self-government function.
    However, in the 21st century, and the new technology-based 
society and the world in which we live, I am interested in 
learning how GPO will continue to serve the legislative and 
informational needs we have here in Congress, and in the 
government, and how GPO will be transforming itself into the 
modern day information repository and primary source publisher 
it should be.
    We live in an age of declining printing and equipment cost 
and the ubiquity of web-based technological advances. Yet, we 
don't want to worship at the altar of speed and change at the 
cost of quality and excellence.
    As GPO, the Government Printing Office, moves forward into 
the future, what will it look like in 5 years? What will it 
look like in 10 years? What specific work will it be performing 
and how will it be performing that work? The work of GPO is 
multifaceted--U.S. passports, the Congressional Record, the 
Federal Register, the Federal Depository Library Program and 
the Federal Digital System--all these and more GPO produces and 
produces well, but what should their production look like even 
years from now?
    There have been and are numerous legislative proposals to 
significantly reduce the number of paper copies of many GPO 
publications. Which proposals make the most sense? How much can 
we eliminate, thus saving the American taxpayer hundreds of 
thousands of dollars?
    These are all questions and issues I hope we discuss today 
as we continue to reduce government spending, promote a culture 
of savings over debt, and make sure our American taxpayers' 
hard-earned dollars are wisely and frugally allocated.
    My colleagues and I are committed to rigorous oversight. 
And I want to thank each of them for being here. At this point, 
I would like to recognize my colleague, Congressman Gonzalez, 
the gentleman from Texas, my good friend, for the purpose of 
providing his opening statement. And Charlie, I turn it over to 
you.
    Mr. Gonzalez. Doctor, thank you very much, and I appreciate 
it, Mr. Chairman.
    The Government Printing Office is a Federal agency, 
obviously, with a storied 150-year history, as the chairman has 
pointed out. The printing industry of course has changed a 
great deal in that time and it is wholly appropriate for us to 
be holding this hearing today to see what obviously the future 
holds for us in the eyes of our printer. Indeed, recent years 
have witnessed some struggles at GPO while GPO has been 
producing digital versions of the Congressional Record since 
before most people had ever heard of the Internet, the creation 
of the Federal Digital System, the new Web site for public 
documents, has run far over budget and is behind schedule. We 
have also seen some past questionable spending and hiring 
practices throughout the agency as well with the Inspector 
General expressing continuing concerns about the agency's human 
capital operations and management.
    That is one reason I am so pleased to see Bill Boarman take 
office as Public Printer this year. It was a real pleasure to 
see Mr. Boarman's nomination approved by unanimous voice vote 
from the Senate Committee on Rules and Administration on a 
motion that came actually from the ranking Republican member of 
that committee.
    With such a strong and bipartisan endorsement, President 
Obama did well in making a recess appointment so that Mr. 
Boarman could take the reins at GPO, and I expect to see his 
renomination confirmed with the Senate equivalent with all due 
speed. In the interim, his recess appointment will allow him to 
address at least some of the concerns that I have expressed and 
are held by others, a process I understand is already underway. 
While it would be too much to expect him to continue the pace 
of saving $15 million every 4 months since he has been in 
office, this is certainly an impressive beginning.
    At our last hearing, I spoke about how fixed costs caused 
some of the budget woes decried at the Election Assistance 
Commission. When you are speaking of GPO's massive presses, the 
fixed costs are even more readily apparent as one of the 
witnesses before us today, Mr. Petersen, will later explain.
    There is also, however, the fact that GPO already contracts 
75 percent of its printing to private companies across the 
country. I know I personally have someone in my district and 
there may be other members of this committee that also benefit 
from those printing contracts. My staff actually spoke to 
Thomas Murray, who is President and owner of Litho Press, 
Incorporated, in San Antonio which has been doing contract work 
for GPO since 1962. Mr. Murray did make some suggestions about 
how the contracting process could be improved, and my office 
will be sharing those with Mr. Boarman's staff, but the simple 
fact is that this is a very welcome business and it is good for 
everyone that is involved.
    Our government's transparency is always dependent on 
providing our citizenry with access to information. For 150 
years GPO has done that. The Internet has opened new channels 
to the public, and I am pleased to see GPO using them to expand 
its reach. We must help them to do so, Mr. Chairman, and this 
hearing is a strong first step.
    And thank you for your indulgence. And I yield back.
    Mr. Gingrey. And I thank the ranking member, Mr. Gonzalez.
    And now I would like to introduce our first witness.
    Mr. William J. Boarman is the 26th Public Printer of the 
United States and Chief Executive Officer, CEO, at GPO, the 
Government Printing Office. Possessing a long and distinguished 
career in printing and publishing industries, Mr. Boarman has 
previously been a printer and has held various positions in the 
International Typographical Union. Within the Communications 
Workers of America he has been President of the Printing, 
Publishing and Media Workers Sector and Senior Vice President. 
He has also been President of the Union Printers Home 
Corporation and a founding member of the ``Capital That 
Matters'' Conference at Harvard Law School.
    He was the first ever public member of Maryland's 
Commission on Judicial Disabilities. Mr. Boarman has advised 
numerous previous Public Printers and was part of the labor-
management team that helped GPO transition to electronic 
photocomposition.
    Mr. Boarman, thank you for being here today. The committee 
has received your written testimony. I will recognize you for 5 
minutes to present a summary of that submission. To help you 
keep that time, we do have a timing device near the witness 
table. The device will emit a green light for 4 minutes and 
will turn yellow when 1 minute remains. And when the light 
turns red it means your time has expired, and as I am chairing 
for the first time the Oversight Subcommittee of the House 
Committee on Administration, I promise you that at least today 
I will have a light gavel.
    Mr. Boarman, please proceed.

 STATEMENT OF WILLIAM J. BOARMAN, PUBLIC PRINTER OF THE UNITED 
               STATES, GOVERNMENT PRINTING OFFICE

    Mr. Boarman. Thank you very much.
    Thank you, Mr. Chairman, and thank you, Mr. Gonzalez, for 
your kind words about GPO. The employees there appreciate 
everything that you have said and I will make sure that they 
hear it.
    Thank you for the opportunity to be here today. Any day I 
get to talk about GPO is a good day for me, and it is an honor 
for me to have been appointed by the President as Public 
Printer. And it is a pleasure to return to GPO, where I served 
as a proofreader some 35 years ago.
    At that time, we negotiated the end of the hot metal 
typesetting at GPO and the start of the electronic 
photocomposition. That was the dawn of the GPO's digital age.
    The efficiencies resulting from that historic transition 
cut the cost of information products by Congress by more than 
two-thirds in real economic terms. GPO has reduced from 8,000 
employees at that time to just a little over 2,200 today, fewer 
than at any time in the past century. Yet more people have more 
access to congressional and Federal agency information through 
us than ever before. That is a remarkable achievement.
    When I came back to GPO, it was like a tale of two cities. 
It was the best of times and it was the worst of times. I found 
a workforce dedicated and highly trained and committed to GPO's 
mission. I am so proud to be able to lead them each day as they 
accomplish amazing things for their customers and especially 
Congress every day.
    At the same time, I found an agency where overhead costs 
had mushroomed by 50 percent in the past 5 years. I found an 
agency top heavy with senior level managers, some of whom spent 
what was, in my opinion, an excessive amount of time on travel, 
including an astonishing amount of travel overseas. And I also 
found that the development of major essential systems like 
FDsys and our financial systems was in the hands of expensive 
contractors.
    GPO's Chief Financial Officer, instead of reporting 
directly to the head of the agency, was buried several layers 
below the organization, and there was a growing volume of 
uncollected bills to Federal agencies that GPO seemed unable to 
resolve. This pattern of excessive spending and costs was 
simply unsustainable.
    Since taking office on January 3, we cut our appropriations 
requests for fiscal year 2012 by more than $5 million from what 
was originally submitted to OMB last year. We cut GPO's annual 
spending plan as previously submitted to the Joint Committee on 
Printing by $15 million and we reduced the number of senior 
level managers. We implemented controls on hiring, travel and 
related discretionary accounts to stem the flow of spending in 
these areas. We realigned GPO's organization so that the Chief 
Financial Officer reports directly to me. We created a task 
force to recover outstanding payments from Federal agencies, a 
problem I have been told had been left unresolved for 7 years. 
We worked with the Appropriations Committee to resolve our 
funding for fiscal year 2011 at about $135.1 million. This is a 
significant reduction from the continuing level of $147.4 
million and a far cry from the $166.6 million requested by GPO 
management last year.
    With reduced funding, we are doing more with less. We 
implemented a project to make Federal Court opinions available 
online. We expanded our partnership with Google Books. We have 
identified additional building space we can make available for 
use of the legislative branch.
    Now we know Congress' need for printing is changing. To 
address that issue, we have launched a comprehensive online 
survey of congressional offices about their need for printing 
products from the GPO. This is the first time this has ever 
been done. GPO can operate more efficiently in support of 
Congress, but we have to be beware of false economies opting 
for a printing system that relies on expensive office printers. 
We also need to be very careful about acquiring equipment whose 
reliability has not been soundly tested under the punishing 
conditions that frequently characterize congressional printing. 
These can be far more costly and less reliable than what we are 
using now. Our investments funds have been significantly 
reduced, which makes it even more important that any equipment 
acquisitions be made wisely.
    GPO has always been up front and center in providing 
Congress with the information products it needs. With the 
measures that we have put in place since January, we will be 
able to continue that record.
    Mr. Chairman, this concludes my opening remarks, and I 
would be very pleased to answer any questions from you and 
members of the committee.
    [The statement of Mr. Boarman follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.001
    
    [GRAPHIC] [TIFF OMITTED] 67450A.002
    
    [GRAPHIC] [TIFF OMITTED] 67450A.003
    
    [GRAPHIC] [TIFF OMITTED] 67450A.004
    
    [GRAPHIC] [TIFF OMITTED] 67450A.005
    
    Mr. Gingrey. Mr. Boarman, we thank you very much for your 
testimony. A vote has been called on the House floor I think 
about 1:38 p.m. Or thereabouts, so the time is not totaling, it 
is running. The subcommittee will now go into a short recess so 
that members may proceed to the floor to vote.
    Now, we have six votes. The first one, of course, is a 15-
minute plus a few, and I think the other five votes are 2-
minute votes. So it may be an hour or 45 minutes to an hour 
before we can reconvene.
    Typically, Mr. Boarman, members would have an opportunity 
now to ask you questions and then hear the testimony of the 
second panel and then to ask questions of that second panel of 
witnesses. Obviously, I don't want to try to rush through and 
hear the testimony of the second panel. I am just going to ask 
you all to take a deep breath and go somewhere and kick your 
feet up and relax and we will be back here in 45 minutes to an 
hour to continue. And what we will do at that time is we will 
ask questions of the first witness, the Honorable William 
Boarman.
    The committee is now recessed.
    [Recess.]
    Mr. Gingrey. The committee will come to order. My 45-minute 
estimate was about like my 10-second hundred yard dash; took a 
little bit longer than I anticipated.
    We now have a time for committee members to ask questions 
of the witness. Each member is allotted 5 minutes to question 
the witness. To help each member to track the time we will use 
the timing device on the witness table. We will alternate back 
and forth among the--and actually I should say between the 
majority and the minority, as there is just the two of us here 
at this time. And I will begin by recognizing myself for 5 
minutes.
    Mr. Boarman, GPO has indicated that approximately 70 
percent of our printing costs are pre-press, in essence getting 
to document to the point of PDF. At the Rules Committee we are 
testing a hearing management system that would automatically 
generate a PDF document as a part of the normal work of the 
committee. This would reduce that document's pre-press cost to 
essentially zero.
    What are your ideas for the Government Printing Office to 
make cost reductions similar to what they are doing in the 
Rules Committee?
    Mr. Boarman. Well, Mr. Chairman, I am not aware of what the 
Rules Committee is doing. I did read that I think yesterday in 
the committee's program for today. But I doubt, without knowing 
it, I doubt whether the constraints and the responsibilities 
placed on them come anywhere near to what we have to do each 
night for the Congress.
    First of all, what we do depends on your work schedule, and 
we respond to what your needs are. And that could be, you know, 
we could have a 20-page record, we could have a 400-page 
record. And we never know until the copy ends coming in.
    And I would just like to make one sort of a dramatic 
presentation, not for any other reason to I think convince 
those present how difficult this is. This is the April 6, 2011 
Congressional Record. It is 184 pages. And that is, I am told, 
a typical version of the Congressional Record that we would 
publish on a daily basis. There are bigger ones than this, but 
this is sort of a typical.
    If I may, this is what we received. You can see that it is 
probably at least 12 inches of copy that comes to the GPO. Now, 
it doesn't all come at one time. It comes over in dribs and 
drabs from the Clerk and from the Secretary of the Senate as it 
is ready to process.
    Now, I want to make it clear that we don't have to typeset 
all of this. A lot of it comes over in machine readable form. 
And so what happens is that the supervisors as it gets to the 
proof room and the pre-press area they pass it out among the 
workers and usually this is done late at night, late on the 
night shift or early in the morning on our third shift, and 
each one of them takes responsibility for a piece of this. And 
they examine it, they authenticate it, they proofread it, copy 
marks are made on that, that has to be set, and some of it has 
to be set. Many times early in the morning, maybe as late as 
1:30, 2 o'clock in the morning, we will get as much as this 
copy that has to be completely typeset and proofread and 
authenticated in addition to what we have to do with the rest 
of it.
    And then miraculously, sometime early in the morning 
usually about 5:30, 6 in the morning we are able to put this up 
online.
    Mr. Gingrey. Let me interrupt you just for a follow-up 
because my time is limited, Mr. Boarman. Thank you for that 
response. But I have been told that in a typical printing 
company that the two greatest costs for a printed job are paper 
and labor. And if you look at GPO's current head count in plant 
operations are 70 percent of employees employed during pre-
press operations and, if not, how did you get to that number?
    Mr. Boarman. Well, that is the actual costs. I mean our 
financial department tells us exactly what the costs are by 
segment and, no, 70 percent of the people do not work in pre-
press.
    Mr. Gingrey. Okay. Well, my time is just about expired, and 
at this point I will yield to my colleague from Texas, Mr. 
Gonzalez, for 5 minutes of his questioning.
    Mr. Gonzalez. Mr. Chairman, thank you very much.
    And thank you, Mr. Boarman, for your service and being here 
and your patience and we are going to hear from some other 
witnesses in a minute. But I think that we all have really it 
is the same goal, and one is make sure that you do your job and 
you want to do your job and we are looking at efficiencies and 
it seems like we are coming up with a bunch of different ideas 
and some will be suggested by the other witnesses, and I always 
look at that as constructive advice. Some people say, ``Well 
that is criticism'' or whatever, but I would like to keep this 
in very positive tone. But first and foremost, when we think of 
you as a printer you are not a printer in the traditional sense 
because of the legal requirements that are imposed on you, what 
we expect from you, and what your duties and goals should be. 
But let's just start off with more or less who are you and what 
are you, and Mr. Petersen will be testifying later.
    In his written testimony this is the way he describes the 
GPO. ``The Federal Government's primary centralized resource 
for producing, procuring, cataloguing, indexing, 
authenticating, disseminating and preserving the official 
information products of the United States Government in digital 
and tangible forms.'' So I think we start off with a very 
unique definition that is going to impact maybe even some of 
the suggestions and recommendations that may be made in good 
faith from outside sources, and that is not to prejudge what 
some of those recommendations may be.
    However, I am going to turn now to some of the written 
testimony as submitted by Mr. Belcher, and again I think this 
is going to be very constructive and this is what he states and 
he will be able to explain it. The GPO currently has very 
little management visibility in tracking reporting capability 
as the procuring process is not run through a print procurement 
software tool.''
    Then I will go to page 3. ``By implementing a print 
procurement software platform, the GPO should be able to take 
out 30 percent or more of the cost to buy print.''
    Now, what I am interpreting, that is the stuff that you 
outsource, I take it that you contract with one of my 
constituents, and so--this is terrible and I am joking so that 
if it is on the record people know it is a joke--if there is 
going to be 30 percent cost savings. Do you mind leaving San 
Antonio out of those and make sure Mr. Murray still has his 
contract. As much as I joke about that, that is what many times 
ails us.
    But how do you respond to that particular suggestion?
    Mr. Boarman. Well, I don't know where the 30 percent figure 
comes from. I had some discussions with Mr. Belcher today and 
he would like to have some more discussion with us and I am 
obviously open to that.
    I think that we do have a procurement system in place that 
has been time tested. We contract out $500 million worth of 
work to the private sector. It goes to the lowest bidder. If 
you cut that by 30 percent, I am not sure anybody would bid on 
it because some of these contracts are pretty low. But as you 
know in San Antonio, I was there recently. I met with the head 
of the Chamber of Commerce and talked about the dollars that we 
put into the San Antonio area, and there is a number of 
companies right around there that depend heavily on this 
contracting.
    So I am anxious to hear more from Mr. Belcher. And I am 
certainly open to any suggestions. In my testimony I talked 
about the charge-back problem, and that is part of the 
procurement issue. So certainly I am not going to close my ears 
to any ideas to help me overcome what I think is one of the 
most significant problems I face as Public Printer today, 
collecting these charge-backs from agencies who have taken the 
money back because of some billing error.
    Mr. Gonzalez. Now you have just been in charge a very short 
period of time, and I have got a minute left and I would like 
to ask you how we can help you? What you are saying is that 
there are Federal agencies and departments that haven't paid 
their bills.
    Mr. Boarman. Well, there is a charge-back--this is all new 
to me coming from the private sector. There is something called 
IPAC at the State Department--I mean at the Treasury Department 
rather--and agencies can collect money from each other for 
services rendered. And so if we do a job for Agriculture and 
say it is $295,000 then we would add our 7 percent surcharge 
and we would reach into their account and pull out 300 and some 
thousand dollars; a week or two later because of the billing 
error it may be $10,000, they reach in and pull the whole thing 
back, and then it stops. And that is what I found. And that is 
what I am going to try to get my arms around. I have got a task 
force of good people who are going to work on that so that we 
can get behind that.
    I don't know whether it is a legislative problem, Mr. 
Chairman. I would like to think about your proposal. Obviously, 
I would take help from anybody to solve this problem because it 
is going to help me capitalize when it comes to equipment if I 
can collect this money.
    But let's let our task force do our job, and I certainly 
will keep in touch with you and your staff about this, and if 
there is a way we think you can help us we will certainly come 
to you.
    Mr. Gonzalez. Thank you very much. Mr. Chairman, my time is 
up, Mr. Chairman, so I am going to yield back.
    Mr. Gingrey. I thank the gentleman.
    Mr. Boarman, thank you for your testimony and your patience 
with our legislative schedule today.
    Other members of the subcommittee may indeed have some 
additional questions that they will submit to you in writing, 
and I would ask you to please respond in a reasonable period of 
time.
    But we thank you very much for being with us today, and at 
this time I am going to dismiss you and call on the second 
panel. Thank you.
    Mr. Boarman. Thank you, Mr. Chairman.
    Mr. Gingrey. I would now like to introduce the witnesses 
for our second panel.
    Mr. Eric Belcher is the President and CEO at InnerWorkings, 
a global provider of managed print and promotional solutions. 
He joined InnerWorkings in June 2005 and has served as Chief 
Operating Officer and Executive Vice President of Operations. 
He has also worked in printing equipment manufacturing and 
distributing and international management consulting. Mr. 
Belcher has an MBA from Chicago Booth and a B.A. from Bucknell 
University.
    The second witness on the panel is, let me just go in my 
order because I can't see that far, Mr. James Hamilton is Group 
Director of InfoTrends' On Demand Printing & Publishing, 
Jetting Technology Opportunities and Wide Format Printing 
Consulting Services. Yes, all of that.
    Mr. Hamilton has been involved in the graphic arts and 
publishing industries since 1980 and has been a member of 
InfoTrends' On Demand Printing & Publishing Consulting Service 
since 1995. Prior to joining InfoTrends Mr. Hamilton worked at 
Linotype-Hell as an Applications Analyst and author of the 
company's Technical Information Series. He has an Master's of 
Science in Printing Technology from Rochester Institute of 
technology and a B.A. from Amherst College.
    Last but not least Dr. Eric Petersen is a Specialist in 
American National Government at the Congressional Research 
Service, where he has worked for 11 years. His areas of 
responsibility include congressional and legislative branch 
administrative operations and government contingency planning. 
In addition to his service at CRS, Dr. Petersen teaches at 
Virginia Tech in the Department of Political Science and has 
taught at the State University of New York system at Syracuse 
University and at the Catholic University of America. He holds 
a Bachelor's Degree from the University of Pennsylvania, a 
Master's in Public Administration from Virginia Tech and a 
Master's and Ph.D. from Syracuse University.
    And we appreciate all three of our witnesses being here 
today and again we appreciate your patience.
    The committee has received your written testimonies. At the 
appropriate time I will recognize each of you for 5 minutes to 
present a summary of that submission. To help you keep that 
time, we have a timing device near the witness table. The 
device will emit a green light for 4 minutes and will turn 
yellow when 1 minute remains. When the light turns red, it 
means your time has expired.
    We are going to start with Mr. Belcher.
    And Mr. Belcher, you are on for 5 minutes.

 STATEMENTS OF ERIC D. BELCHER, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, INNERWORKINGS, INC.; JAMES HAMILTON, GROUP DIRECTOR, 
INFOTRENDS; AND ERIC PETERSEN, SPECIALIST IN AMERICAN NATIONAL 
           GOVERNMENT, CONGRESSIONAL RESEARCH SERVICE

                  STATEMENT OF ERIC D. BELCHER

    Mr. Belcher. Great. Well, thank you very much, Mr. Chairman 
and members of the committee. Again, my name is Eric Belcher, 
and I am the CEO of InnerWorkings. We are a public company that 
does only one thing; our sole core competency is the ability to 
source printed material. We procure print on behalf of 
corporations.
    We have been in business for about 10 years. We have been a 
public company for about 4 or 5 years, and this year our public 
guidance is to do 590 to $620 million worth of revenue. Our 
spend, our revenue is growing very, very rapidly, and the 
primary reason is because for the first time that we know of 
there is in our technology platform sophisticated use of 
information, of data, of print procurement data being deployed 
in order to make the best decision on a job-by-job basis 
regarding a piece of printed material.
    Now, our corporation advocates that companies who don't 
claim their sole core competency is the ability to source print 
outsource that function to us, and we work with companies like 
Unilever and InterContinental Hotels and John Deere. They in 
turn benefit from our procurement technology, which primarily 
consists of an order management platform to make the process of 
bidding out the work, issuing POs, ultimately invoicing our 
clients as efficient and streamlined as possible, and it also 
consists, our databases also consist of procurement tools that 
allow us to match on a job-by-job basis a specification with 
the appropriate manufacturing configuration.
    We work with 4,000 printers around the world to source our 
product and we have 8,000 printers in our databases.
    We ultimately believe that the trend in print procurement 
is to utilize data and information versus the way in which it 
is done in most private corporations right now, which is a 
reliance on relationships with local, regional print 
manufacturing facilities and historical relationships. We 
believe that the use of data in procuring printed material, 
because of the complexity of the product, is ultimately the 
future, and our growth I think illustrates that even with some 
companies that are able to procure print very, very 
effectively, gang running, using reverse auctions, very 
talented professionals in place, we are able to demonstrate 
savings of 20, 30 percent, and in some cases more, by plugging 
in our business model and our technology.
    So I am very pleased to be here today to talk about our 
approach, our databases, how we use them, and how, were the 
government to adopt some of the best practices coming out of 
private industry, what the potential might be in working 
together. We believe we are now buying just a little bit more 
than the GPO, but we couldn't have said that a few years ago by 
any stretch of the imagination. And so again I am very pleased 
to be here today.
    [The statement of Mr. Belcher follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.006
    
    [GRAPHIC] [TIFF OMITTED] 67450A.007
    
    [GRAPHIC] [TIFF OMITTED] 67450A.008
    
    [GRAPHIC] [TIFF OMITTED] 67450A.009
    
    Mr. Gingrey. Thank you.
    Mr. Belcher, thank you for your testimony, and now we will 
call on Mr. Hamilton.

                  STATEMENT OF JAMES HAMILTON

    Mr. Hamilton. Thank you very much, Mr. Chairman.
    I am Jim Hamilton. I am a Group Director at InfoTrends. My 
expertise area is production printing and publishing.
    Before I get started, I would like to ask permission to 
submit a report for the record which provides some statistical 
backup to the brief testimony I will give now. It is called 
Transitioning to Digital. I believe you have received a hard 
copy of that.
    Mr. Gingrey. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.010
    
    [GRAPHIC] [TIFF OMITTED] 67450A.011
    
    [GRAPHIC] [TIFF OMITTED] 67450A.012
    
    [GRAPHIC] [TIFF OMITTED] 67450A.013
    
    [GRAPHIC] [TIFF OMITTED] 67450A.014
    
    [GRAPHIC] [TIFF OMITTED] 67450A.015
    
    [GRAPHIC] [TIFF OMITTED] 67450A.016
    
    [GRAPHIC] [TIFF OMITTED] 67450A.017
    
    [GRAPHIC] [TIFF OMITTED] 67450A.018
    
    [GRAPHIC] [TIFF OMITTED] 67450A.019
    
    [GRAPHIC] [TIFF OMITTED] 67450A.020
    
    [GRAPHIC] [TIFF OMITTED] 67450A.021
    
    [GRAPHIC] [TIFF OMITTED] 67450A.022
    
    [GRAPHIC] [TIFF OMITTED] 67450A.023
    
    [GRAPHIC] [TIFF OMITTED] 67450A.024
    
    [GRAPHIC] [TIFF OMITTED] 67450A.025
    
    Mr. Hamilton. Thank you.
    The United States Government Printing Office's core mission 
is to produce, protect, preserve and distribute documents of 
our democracy. When the GPO was founded 150 years ago, the only 
feasible method of producing, protecting, preserving, and 
distributing was, of course, in print. And now today with a 
multitude of electronic distribution methods available that has 
changed. An appropriate question for today is what is the best 
method or what are the best methods of producing, protecting, 
preserving and distributing any type of document?
    Now, I would like to talk about some technology trends that 
are impacting the answer to that question.
    Print used to be the central distribution method. It is not 
anymore. Traditional print reproduction methods which are best 
suited to manufacturing many copies of the same content are 
under very increasing pressure to meet tight deadlines and to 
produce economic short runs of the most up-to-date and targeted 
information.
    Now digital print methods are well established today for 
short run, quick turnaround, targeted and personalized work. 
Offset printing technology, though while it is under attack, 
still has some compelling economic reasons for continued use.
    And then for pure electronic delivery, high speed Internet 
connectivity and mobile phone technologies have enabled 
information delivery in ways that are impossible for print to 
achieve today.
    Now, while we are looking at technology trends, there are 
also industry trends that are important. Market consolidation 
among commercial printers has reduced the number of sites 
significantly over the past 2 decades, while at the same time 
industry employment levels have also dropped.
    Concurrently, automated work flow tools have allowed 
workers to become much more productive, and this has resulted 
in an increase in revenue produced per worker.
    On the content side, digital delivery of information has 
many key advantages, which I am sure you are seeing. The ease 
of searching, the inclusion of live hyperlinks, media, the 
ability to access content very quickly, portability from one 
place to the next, tight control of content and the ability to 
update as needed. But print continues to have significant value 
as a content delivery method through its physical aspects--lack 
of a requirement for an electronic device to read it, the 
ability to easily archive, annotation, to read without worrying 
about electricity or battery life and, of course, the ease of 
recycling paper.
    Another interesting point is that print is egalitarian in 
the sense that it doesn't require high tech devices or monthly 
service plans.
    Publishers and other content providers have seen how 
digital print and electronic delivery can be used in 
combination to create a data warehouse of documents that allows 
books to be ordered as they are needed.
    Now, print's move to secondary status happened over a 
period of about 20 years. The Internet, cell phones, mobile 
connectivity all have contributed to that shift. Adjusting to 
such a massive change isn't easy. InfoTrends has seen firsthand 
how private and public organizations have refocused on the use 
of content and how it is captured, formatted, distributed and 
archived. The GPO's leadership role in this transition is well 
acknowledged in the industry.
    Moving forward, the challenge for all will be to meet the 
document user's need for accurate information delivered in the 
most effective means. With technology changing at such a rapid 
pace and a requirement to preserve documents with an eye 
towards history, this is no easy task. So what we see, a 
multichannel approach is the goal. Doing so takes advantage of 
the best of each method. So one, the low cost manufacturing 
benefits of conventional printing presses; two, the short run, 
quick turnaround, targeted and personalized benefit of digital 
print; and, three, the timely, immediate and mobile benefits of 
electronic delivery through a global connected network.
    Now understanding how the GPO executes on such an approach 
requires a clear knowledge of the purpose of each document and 
the needs of the customers served. With that in hand, assessing 
the current and future production requirements for the GPO 
becomes feasible.
    So thank you for the opportunity to address the committee. 
I welcome any questions you have as follow-up.
    [The statement of Mr. Hamilton follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.026
    
    [GRAPHIC] [TIFF OMITTED] 67450A.027
    
    [GRAPHIC] [TIFF OMITTED] 67450A.028
    
    [GRAPHIC] [TIFF OMITTED] 67450A.029
    
    Mr. Gingrey. Thank you, Mr. Hamilton. And now Dr. Petersen 
for 5 minutes.

                   STATEMENT OF ERIC PETERSEN

    Mr. Petersen. Thank you, Mr. Chairman, Ranking Member 
Gonzalez, members of the subcommittee. I appreciate the 
opportunity to appear before you today. In addition to my 
written statement, I ask that a copy of CRS Report R40897, 
Congressional Printing: Background and Issues for Congress, 
which I authored with my colleague Amber Hope Wilhem, be 
included in the record of today's hearing.
    Mr. Gingrey. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.030
    
    [GRAPHIC] [TIFF OMITTED] 67450A.031
    
    [GRAPHIC] [TIFF OMITTED] 67450A.032
    
    [GRAPHIC] [TIFF OMITTED] 67450A.033
    
    [GRAPHIC] [TIFF OMITTED] 67450A.034
    
    [GRAPHIC] [TIFF OMITTED] 67450A.035
    
    [GRAPHIC] [TIFF OMITTED] 67450A.036
    
    [GRAPHIC] [TIFF OMITTED] 67450A.037
    
    [GRAPHIC] [TIFF OMITTED] 67450A.038
    
    [GRAPHIC] [TIFF OMITTED] 67450A.039
    
    [GRAPHIC] [TIFF OMITTED] 67450A.040
    
    [GRAPHIC] [TIFF OMITTED] 67450A.041
    
    [GRAPHIC] [TIFF OMITTED] 67450A.042
    
    [GRAPHIC] [TIFF OMITTED] 67450A.043
    
    [GRAPHIC] [TIFF OMITTED] 67450A.044
    
    [GRAPHIC] [TIFF OMITTED] 67450A.045
    
    [GRAPHIC] [TIFF OMITTED] 67450A.046
    
    [GRAPHIC] [TIFF OMITTED] 67450A.047
    
    [GRAPHIC] [TIFF OMITTED] 67450A.048
    
    [GRAPHIC] [TIFF OMITTED] 67450A.049
    
    [GRAPHIC] [TIFF OMITTED] 67450A.050
    
    [GRAPHIC] [TIFF OMITTED] 67450A.051
    
    [GRAPHIC] [TIFF OMITTED] 67450A.052
    
    [GRAPHIC] [TIFF OMITTED] 67450A.053
    
    [GRAPHIC] [TIFF OMITTED] 67450A.054
    
    [GRAPHIC] [TIFF OMITTED] 67450A.055
    
    [GRAPHIC] [TIFF OMITTED] 67450A.056
    
    [GRAPHIC] [TIFF OMITTED] 67450A.057
    
    [GRAPHIC] [TIFF OMITTED] 67450A.058
    
    [GRAPHIC] [TIFF OMITTED] 67450A.059
    
    [GRAPHIC] [TIFF OMITTED] 67450A.060
    
    [GRAPHIC] [TIFF OMITTED] 67450A.061
    
    [GRAPHIC] [TIFF OMITTED] 67450A.062
    
    [GRAPHIC] [TIFF OMITTED] 67450A.063
    
    [GRAPHIC] [TIFF OMITTED] 67450A.064
    
    [GRAPHIC] [TIFF OMITTED] 67450A.065
    
    [GRAPHIC] [TIFF OMITTED] 67450A.066
    
    [GRAPHIC] [TIFF OMITTED] 67450A.067
    
    [GRAPHIC] [TIFF OMITTED] 67450A.068
    
    Mr. Petersen. Thank you, Mr. Chairman.
    Since its establishment 150 years ago, GPO has reflected 
transformations in private sector printing, publishing and 
information management concerns. In the past four decades 
especially, these industries have addressed the emergence of 
electronic printing and distribution. Mass produced printed 
products were the focus of the 19th and 20th centuries. Today, 
smaller quantities of paper copies of government publications 
are available, but most information is accessible without 
charge to the end-user in electronic form through the Internet.
    According to GPO, approximately 97 percent of all U.S. 
Government documents are born digital; that is, they are 
published electronically and available through the Internet and 
will never be printed. What this means is that some of the 
materials are more readily available to wider audiences than 
they were when they were produced only in paper form.
    And in light of some of these changes, it has been argued 
that eliminating more paper copies of congressional and 
executive branch documents could result in further cost and 
resource savings.
    At the same time, current law regarding document 
production, authentication and preservation, as well as some 
user demand, require that a number of paper-based documents be 
produced and distributed as part of the official record of 
governmental proceedings.
    Several initiatives, including legislative proposals and 
administrative activities in Congress and the executive branch 
have been introduced to further reduce costs in paper copies. 
These efforts focus on the potential savings that could result 
from producing fewer paper copies. Some savings may result, but 
it is not clear that they will necessarily be as extensive as 
various proponents claim. In part this is because the expenses 
associated with producing even a small number of paper copies 
can eat into the savings. Another cost concern related to 
producing paper copies, and I guess it is important here to 
distinguish between mass produced paper copies that are 
comparatively inexpensive coming from GPO or another printing 
concern, and individually produced copies from a laser printer 
or an enterprise copy center which are considerably more 
expensive. Taken together, whether you are going with 
centralized copies or the individually printed copies, any of 
the savings are likely to be eaten up in that kind of 
productivity.
    In addition to the cost concerns, reducing the number of 
paper copies raises questions about access to government 
materials to folks who do not have access to the Internet or 
high speed versions of the Internet. It also raises questions 
about the capacity to archive the records of government and 
retrieve those materials in the future.
    In these cases, a reduction in the number of paper copies 
could reduce the transparency of government activities for some 
and reduce the availability of a complete, enduring archival 
record of government activities.
    Today's hearing was called to consider how GPO will 
transition to the future. At this point, the way forward 
appears unclear. The agency is at a crossroads with obligations 
to continue to produce products in essentially the same manner 
as it has for 150 years, printed version, and at the same time 
engage newer responsibilities to manage an ongoing transition 
to an environment where information is collected, 
authenticated, reproduced and distributed through an ever-
growing variety of outlets.
    Some of the challenges facing the agency appear to include 
questions about what efficiencies might still be achieved in 
the short term, as well as a thorough consideration of how the 
agency might evolve over a longer term.
    I would like to just focus on a couple of the challenges 
the agency and Congress may face as they consider new policy.
    First, it appears that the statutory authorities, may not 
reach the full spectrum of GPO activities and capacities. With 
the exception of a law enacted in 1993 regarding the electronic 
publication of certain documents, statutes governing the 
activities of GPO have not changed since the late 1960s, just 
before the first inroads of the transition to electronic 
information occurred.
    In addition to that, the detailed requirements for the 
distribution of paper copies or a variety of documents that are 
no longer produced, those that remain are produced in smaller 
than authorized quantities. In addition, the current business 
model under which GPO operates is arguably overreliance on 
printing as a means of generating income, and there are no 
explicit provisions to meet the cost of upgrading technological 
infrastructures.
    I see my time has expired. I think in conclusion I would 
say the manner in which GPO transitions to the future may rest 
in part in how some of these concerns are addressed.
    I appreciate again the opportunity to be invited to 
testify, and I will be happy to address any questions you may 
have.
    [The statement of Mr. Petersen follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.069
    
    [GRAPHIC] [TIFF OMITTED] 67450A.070
    
    [GRAPHIC] [TIFF OMITTED] 67450A.071
    
    [GRAPHIC] [TIFF OMITTED] 67450A.072
    
    [GRAPHIC] [TIFF OMITTED] 67450A.073
    
    [GRAPHIC] [TIFF OMITTED] 67450A.074
    
    [GRAPHIC] [TIFF OMITTED] 67450A.075
    
    [GRAPHIC] [TIFF OMITTED] 67450A.076
    
    Mr. Gingrey. Dr. Petersen, we thank you. And I would like 
to thank all of the witnesses on this second panel for your 
patience and your testimony today.
    To expedite the hearing, the members of the subcommittee 
will submit questions to you in writing, and as I asked the 
first witness, we would ask you also that you respond to these 
questions in a reasonable period of time.
    And I now ask unanimous consent to enter the following 
documents into the hearing record, first a statement of the 
Honorable Karen Haas, Clerk of the House, regarding the 
relationship between the House and the Government Printing 
Office in the production of documents; secondly, a statement of 
John Landwehr of the Adobe Corporation regarding options to 
increase value of electronic publications; and third, the 
Office of Management and Budget memorandum M-11-18 written by 
Jeff Zients regarding reduction of the use of paper copies of 
the Federal Register within the executive branch.
    Without objection to this request, it is so ordered.
    [The statement of Ms. Haas follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.077
    
    [GRAPHIC] [TIFF OMITTED] 67450A.078
    
    [GRAPHIC] [TIFF OMITTED] 67450A.079
    
    [GRAPHIC] [TIFF OMITTED] 67450A.080
    
    [The statement of Mr. Landwehr follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.081
    
    [GRAPHIC] [TIFF OMITTED] 67450A.082
    
    [GRAPHIC] [TIFF OMITTED] 67450A.083
    
    [GRAPHIC] [TIFF OMITTED] 67450A.084
    
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.085
    
    [GRAPHIC] [TIFF OMITTED] 67450A.086
    
    Mr. Gingrey. I would now like to turn to my colleague, the 
ranking member, Mr. Gonzalez, for any concluding remarks or 
requests.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. There is 
going to be a unanimous consent request to tender into the 
record the written testimony of Suzanne Eileen Sears, who is 
the Assistant Dean for Public Services, University of North 
Texas Libraries, on the value, in essence on the value of the 
printed paper copies of the Congressional Record, Federal 
Register and other GPO products to professional researchers and 
archivists.
    Among other points, Ms. Sears would note that the longevity 
of digital materials for archiving has not been tested and that 
many libraries have diskettes and CDs that no longer work or 
cannot be accessed. I would ask unanimous consent.
    Mr. Gingrey. Without objection, so ordered.
    [The statement of Ms. Sears follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.087
    
    [GRAPHIC] [TIFF OMITTED] 67450A.088
    
    [GRAPHIC] [TIFF OMITTED] 67450A.089
    
    Mr. Gonzalez. Mr. Chairman, my understanding is we are 
going to be submitting written questions; is that correct?
    Mr. Gingrey. That is correct.
    Mr. Gonzalez. But just a real quick observation.
    I think all of you have so much to add and to assist us. 
And Mr. Belcher, I am really curious about your aspect. Mr. 
Petersen has indicated that 97 percent of what GPO does is 
digital anyway. It is not really printed. But then we still 
have a tremendous investment going out there in the printed 
word on paper and such, and the fact that there may be some way 
to reduce that particular cost is obviously very, very 
attractive. And I appreciate you meeting with Mr. Boarman.
    The other thing, Mr. Chairman, it has been reported out of 
the Senate Rules Committee today or at least favorably Mr. 
Boarman's nomination. And so hopefully he will be going to the 
Senate floor.
    And with that, I yield back, And thank you for your 
courtesies.
    Mr. Gingrey. I thank the distinguished ranking member and 
congratulations are in order to Mr. Boarman.
    Again, let me thank both panels of witnesses, and I 
appreciate your patience in particular with our schedule.
    With that, the Subcommittee on Oversight of the Committee 
on House Administration hearing is adjourned.
    [The statement of Mr. Brady follows:]
    [GRAPHIC] [TIFF OMITTED] 67450A.090
    
    [Whereupon, at 4:03 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 67450A.091
    
    [GRAPHIC] [TIFF OMITTED] 67450A.092
    
    [GRAPHIC] [TIFF OMITTED] 67450A.093
    
    [GRAPHIC] [TIFF OMITTED] 67450A.094
    
    [GRAPHIC] [TIFF OMITTED] 67450A.095
    
    [GRAPHIC] [TIFF OMITTED] 67450A.096
    
    [GRAPHIC] [TIFF OMITTED] 67450A.097
    
    [GRAPHIC] [TIFF OMITTED] 67450A.098
    
    [GRAPHIC] [TIFF OMITTED] 67450A.099
    
    [GRAPHIC] [TIFF OMITTED] 67450A.100
    
    [GRAPHIC] [TIFF OMITTED] 67450A.101
    
    [GRAPHIC] [TIFF OMITTED] 67450A.102
    
    [GRAPHIC] [TIFF OMITTED] 67450A.103
    
    [GRAPHIC] [TIFF OMITTED] 67450A.104
    
    [GRAPHIC] [TIFF OMITTED] 67450A.105
    
    [GRAPHIC] [TIFF OMITTED] 67450A.106
    
    [GRAPHIC] [TIFF OMITTED] 67450A.107
    
    [GRAPHIC] [TIFF OMITTED] 67450A.108
    
    [GRAPHIC] [TIFF OMITTED] 67450A.109
    
    [GRAPHIC] [TIFF OMITTED] 67450A.110
    
    [GRAPHIC] [TIFF OMITTED] 67450A.111
    
    [GRAPHIC] [TIFF OMITTED] 67450A.112
    
    [GRAPHIC] [TIFF OMITTED] 67450A.113
    
    [GRAPHIC] [TIFF OMITTED] 67450A.114
    
    [GRAPHIC] [TIFF OMITTED] 67450A.115
    
    [GRAPHIC] [TIFF OMITTED] 67450A.116
    
    [GRAPHIC] [TIFF OMITTED] 67450A.117
    
    [GRAPHIC] [TIFF OMITTED] 67450A.118
    
    [GRAPHIC] [TIFF OMITTED] 67450A.119
    
    [GRAPHIC] [TIFF OMITTED] 67450A.120
    
    [GRAPHIC] [TIFF OMITTED] 67450A.121
    
    [GRAPHIC] [TIFF OMITTED] 67450A.122
    
    [GRAPHIC] [TIFF OMITTED] 67450A.123
    
    [GRAPHIC] [TIFF OMITTED] 67450A.124
    
    [GRAPHIC] [TIFF OMITTED] 67450A.125
    
    [GRAPHIC] [TIFF OMITTED] 67450A.126
    
    [GRAPHIC] [TIFF OMITTED] 67450A.127
    
    [GRAPHIC] [TIFF OMITTED] 67450A.128
    
    [GRAPHIC] [TIFF OMITTED] 67450A.129
    
    [GRAPHIC] [TIFF OMITTED] 67450A.130
    
    [GRAPHIC] [TIFF OMITTED] 67450A.131
    
    [GRAPHIC] [TIFF OMITTED] 67450A.132
    
    [GRAPHIC] [TIFF OMITTED] 67450A.133
    
    [GRAPHIC] [TIFF OMITTED] 67450A.134
    
    [GRAPHIC] [TIFF OMITTED] 67450A.135
    
    [GRAPHIC] [TIFF OMITTED] 67450A.136
    
    [GRAPHIC] [TIFF OMITTED] 67450A.137
    
    [GRAPHIC] [TIFF OMITTED] 67450A.138
    
    [GRAPHIC] [TIFF OMITTED] 67450A.139
    
    [GRAPHIC] [TIFF OMITTED] 67450A.140
    
    [GRAPHIC] [TIFF OMITTED] 67450A.141
    
    [GRAPHIC] [TIFF OMITTED] 67450A.142
    
    [GRAPHIC] [TIFF OMITTED] 67450A.143
    
    [GRAPHIC] [TIFF OMITTED] 67450A.144
    
    [GRAPHIC] [TIFF OMITTED] 67450A.145
    
    [GRAPHIC] [TIFF OMITTED] 67450A.146
    
    [GRAPHIC] [TIFF OMITTED] 67450A.147
    
    [GRAPHIC] [TIFF OMITTED] 67450A.148
    
    [GRAPHIC] [TIFF OMITTED] 67450A.149
    
    [GRAPHIC] [TIFF OMITTED] 67450A.150
    
    [GRAPHIC] [TIFF OMITTED] 67450A.151
    
    [GRAPHIC] [TIFF OMITTED] 67450A.152
    
    [GRAPHIC] [TIFF OMITTED] 67450A.153
    
    [GRAPHIC] [TIFF OMITTED] 67450A.154
    
    [GRAPHIC] [TIFF OMITTED] 67450A.155
    
    [GRAPHIC] [TIFF OMITTED] 67450A.156
    
    [GRAPHIC] [TIFF OMITTED] 67450A.157
    
    [GRAPHIC] [TIFF OMITTED] 67450A.158
    
    [GRAPHIC] [TIFF OMITTED] 67450A.159
    
    [GRAPHIC] [TIFF OMITTED] 67450A.160
    
    [GRAPHIC] [TIFF OMITTED] 67450A.161
    
    [GRAPHIC] [TIFF OMITTED] 67450A.162
    
    [GRAPHIC] [TIFF OMITTED] 67450A.163
    
    [GRAPHIC] [TIFF OMITTED] 67450A.165
    
    [GRAPHIC] [TIFF OMITTED] 67450A.164
    
    [GRAPHIC] [TIFF OMITTED] 67450A.166
    
    [GRAPHIC] [TIFF OMITTED] 67450A.167
    
    [GRAPHIC] [TIFF OMITTED] 67450A.168
    
    [GRAPHIC] [TIFF OMITTED] 67450A.169
    
    [GRAPHIC] [TIFF OMITTED] 67450A.170
    
    [GRAPHIC] [TIFF OMITTED] 67450A.171
    
    [GRAPHIC] [TIFF OMITTED] 67450A.172
    
    [GRAPHIC] [TIFF OMITTED] 67450A.173
    
    [GRAPHIC] [TIFF OMITTED] 67450A.174
    
    [GRAPHIC] [TIFF OMITTED] 67450A.175
    
    [GRAPHIC] [TIFF OMITTED] 67450A.176
    
    [GRAPHIC] [TIFF OMITTED] 67450A.177
    
    [GRAPHIC] [TIFF OMITTED] 67450A.178
    
    [GRAPHIC] [TIFF OMITTED] 67450A.179
    
    [GRAPHIC] [TIFF OMITTED] 67450A.180
    
    [GRAPHIC] [TIFF OMITTED] 67450A.181
    
    [GRAPHIC] [TIFF OMITTED] 67450A.182
    
    [GRAPHIC] [TIFF OMITTED] 67450A.183
    
    [GRAPHIC] [TIFF OMITTED] 67450A.184
    
    [GRAPHIC] [TIFF OMITTED] 67450A.185
    
    [GRAPHIC] [TIFF OMITTED] 67450A.186
    
    [GRAPHIC] [TIFF OMITTED] 67450A.187
    
    [GRAPHIC] [TIFF OMITTED] 67450A.188
    
    [GRAPHIC] [TIFF OMITTED] 67450A.189
    
    [GRAPHIC] [TIFF OMITTED] 67450A.190
    
    [GRAPHIC] [TIFF OMITTED] 67450A.191
    
    [GRAPHIC] [TIFF OMITTED] 67450A.192
    
    [GRAPHIC] [TIFF OMITTED] 67450A.193
    
    [GRAPHIC] [TIFF OMITTED] 67450A.194
    
    [GRAPHIC] [TIFF OMITTED] 67450A.195
    
    [GRAPHIC] [TIFF OMITTED] 67450A.196
    
    [GRAPHIC] [TIFF OMITTED] 67450A.197
    
    [GRAPHIC] [TIFF OMITTED] 67450A.198
    
    [GRAPHIC] [TIFF OMITTED] 67450A.199
    
    [GRAPHIC] [TIFF OMITTED] 67450A.200
    
    [GRAPHIC] [TIFF OMITTED] 67450A.201
    
    [GRAPHIC] [TIFF OMITTED] 67450A.202
    
    [GRAPHIC] [TIFF OMITTED] 67450A.203
    
    [GRAPHIC] [TIFF OMITTED] 67450A.204
    
    [GRAPHIC] [TIFF OMITTED] 67450A.205
    
    [GRAPHIC] [TIFF OMITTED] 67450A.206
    
    [GRAPHIC] [TIFF OMITTED] 67450A.207
    
    [GRAPHIC] [TIFF OMITTED] 67450A.208
    
    [GRAPHIC] [TIFF OMITTED] 67450A.209
    
    [GRAPHIC] [TIFF OMITTED] 67450A.210
    
    [GRAPHIC] [TIFF OMITTED] 67450A.211
    
    [GRAPHIC] [TIFF OMITTED] 67450A.212
    
    [GRAPHIC] [TIFF OMITTED] 67450A.213
    
    [GRAPHIC] [TIFF OMITTED] 67450A.214
    
    [GRAPHIC] [TIFF OMITTED] 67450A.215
    
    [GRAPHIC] [TIFF OMITTED] 67450A.216
    
    [GRAPHIC] [TIFF OMITTED] 67450A.217
    
    [GRAPHIC] [TIFF OMITTED] 67450A.218
    
    [GRAPHIC] [TIFF OMITTED] 67450A.219
    
    [GRAPHIC] [TIFF OMITTED] 67450A.220
    
    [GRAPHIC] [TIFF OMITTED] 67450A.221
    
    [GRAPHIC] [TIFF OMITTED] 67450A.222
    
    [GRAPHIC] [TIFF OMITTED] 67450A.223
    
    [GRAPHIC] [TIFF OMITTED] 67450A.224
    
    [GRAPHIC] [TIFF OMITTED] 67450A.225
    
    [GRAPHIC] [TIFF OMITTED] 67450A.226
    
    [GRAPHIC] [TIFF OMITTED] 67450A.227
    
    [GRAPHIC] [TIFF OMITTED] 67450A.228
    
    [GRAPHIC] [TIFF OMITTED] 67450A.229
    
    [GRAPHIC] [TIFF OMITTED] 67450A.230
    
    [GRAPHIC] [TIFF OMITTED] 67450A.231
    
    [GRAPHIC] [TIFF OMITTED] 67450A.232
    
    [GRAPHIC] [TIFF OMITTED] 67450A.233
    
    [GRAPHIC] [TIFF OMITTED] 67450A.234
    
    [GRAPHIC] [TIFF OMITTED] 67450A.235
    
    [GRAPHIC] [TIFF OMITTED] 67450A.236
    
    [GRAPHIC] [TIFF OMITTED] 67450A.237
    
    [GRAPHIC] [TIFF OMITTED] 67450A.238
    
    [GRAPHIC] [TIFF OMITTED] 67450A.239
    
    [GRAPHIC] [TIFF OMITTED] 67450A.240
    
    [GRAPHIC] [TIFF OMITTED] 67450A.241
    
    [GRAPHIC] [TIFF OMITTED] 67450A.242
    
    [GRAPHIC] [TIFF OMITTED] 67450A.243
    
    [GRAPHIC] [TIFF OMITTED] 67450A.244
    
    [GRAPHIC] [TIFF OMITTED] 67450A.245
    
    [GRAPHIC] [TIFF OMITTED] 67450A.246
    
    [GRAPHIC] [TIFF OMITTED] 67450A.247
    
    [GRAPHIC] [TIFF OMITTED] 67450A.248
    
    [GRAPHIC] [TIFF OMITTED] 67450A.249
    
    [GRAPHIC] [TIFF OMITTED] 67450A.250
    
    [GRAPHIC] [TIFF OMITTED] 67450A.251
    
    [GRAPHIC] [TIFF OMITTED] 67450A.252
    
    [GRAPHIC] [TIFF OMITTED] 67450A.253
    
    [GRAPHIC] [TIFF OMITTED] 67450A.254
    
    [GRAPHIC] [TIFF OMITTED] 67450A.255
    
    [GRAPHIC] [TIFF OMITTED] 67450A.256
    
    [GRAPHIC] [TIFF OMITTED] 67450A.257
    
    [GRAPHIC] [TIFF OMITTED] 67450A.258
    
    [GRAPHIC] [TIFF OMITTED] 67450A.259
    
    [GRAPHIC] [TIFF OMITTED] 67450A.260
    
    [GRAPHIC] [TIFF OMITTED] 67450A.261
    
    [GRAPHIC] [TIFF OMITTED] 67450A.262
    
    [GRAPHIC] [TIFF OMITTED] 67450A.263
    
    [GRAPHIC] [TIFF OMITTED] 67450A.264
    
    [GRAPHIC] [TIFF OMITTED] 67450A.265
    
    [GRAPHIC] [TIFF OMITTED] 67450A.266
    
    [GRAPHIC] [TIFF OMITTED] 67450A.267
    
    [GRAPHIC] [TIFF OMITTED] 67450A.268
    
    [GRAPHIC] [TIFF OMITTED] 67450A.269
    
    [GRAPHIC] [TIFF OMITTED] 67450A.270
    
    [GRAPHIC] [TIFF OMITTED] 67450A.271
    
    [GRAPHIC] [TIFF OMITTED] 67450A.272
    
    [GRAPHIC] [TIFF OMITTED] 67450A.273
    
    [GRAPHIC] [TIFF OMITTED] 67450A.274
    
    [GRAPHIC] [TIFF OMITTED] 67450A.275
    
    [GRAPHIC] [TIFF OMITTED] 67450A.276
    
    [GRAPHIC] [TIFF OMITTED] 67450A.277
    
    [GRAPHIC] [TIFF OMITTED] 67450A.278
    
    [GRAPHIC] [TIFF OMITTED] 67450A.279
    
    [GRAPHIC] [TIFF OMITTED] 67450A.280
    
    [GRAPHIC] [TIFF OMITTED] 67450A.281
    
    [GRAPHIC] [TIFF OMITTED] 67450A.282
    
    [GRAPHIC] [TIFF OMITTED] 67450A.283
    
    [GRAPHIC] [TIFF OMITTED] 67450A.284
    
    [GRAPHIC] [TIFF OMITTED] 67450A.285
    
    [GRAPHIC] [TIFF OMITTED] 67450A.286
    
    [GRAPHIC] [TIFF OMITTED] 67450A.287
    
    [GRAPHIC] [TIFF OMITTED] 67450A.288
    
    [GRAPHIC] [TIFF OMITTED] 67450A.289
    
    [GRAPHIC] [TIFF OMITTED] 67450A.290
    
    [GRAPHIC] [TIFF OMITTED] 67450A.291
    
    [GRAPHIC] [TIFF OMITTED] 67450A.292
    
    [GRAPHIC] [TIFF OMITTED] 67450A.293
    
    [GRAPHIC] [TIFF OMITTED] 67450A.294
    
    [GRAPHIC] [TIFF OMITTED] 67450A.295
    
    [GRAPHIC] [TIFF OMITTED] 67450A.296
    
    [GRAPHIC] [TIFF OMITTED] 67450A.297
    
    [GRAPHIC] [TIFF OMITTED] 67450A.298
    
    [GRAPHIC] [TIFF OMITTED] 67450A.299
    
    [GRAPHIC] [TIFF OMITTED] 67450A.300
    
    [GRAPHIC] [TIFF OMITTED] 67450A.301
    
    [GRAPHIC] [TIFF OMITTED] 67450A.302
    
    [GRAPHIC] [TIFF OMITTED] 67450A.303
    
    [GRAPHIC] [TIFF OMITTED] 67450A.304
    
    [GRAPHIC] [TIFF OMITTED] 67450A.305
    
    [GRAPHIC] [TIFF OMITTED] 67450A.306
    
    [GRAPHIC] [TIFF OMITTED] 67450A.307
    
    [GRAPHIC] [TIFF OMITTED] 67450A.308
    
    [GRAPHIC] [TIFF OMITTED] 67450A.309
    
    [GRAPHIC] [TIFF OMITTED] 67450A.310
    
    [GRAPHIC] [TIFF OMITTED] 67450A.311
    
    [GRAPHIC] [TIFF OMITTED] 67450A.312
    
    [GRAPHIC] [TIFF OMITTED] 67450A.313
    
    [GRAPHIC] [TIFF OMITTED] 67450A.314
    
    [GRAPHIC] [TIFF OMITTED] 67450A.315
    
    [GRAPHIC] [TIFF OMITTED] 67450A.316
    
    [GRAPHIC] [TIFF OMITTED] 67450A.317
    
    [GRAPHIC] [TIFF OMITTED] 67450A.318
    
    [GRAPHIC] [TIFF OMITTED] 67450A.319
    
    [GRAPHIC] [TIFF OMITTED] 67450A.320
    
    [GRAPHIC] [TIFF OMITTED] 67450A.321
    
    [GRAPHIC] [TIFF OMITTED] 67450A.322
    
    [GRAPHIC] [TIFF OMITTED] 67450A.323
    
    [GRAPHIC] [TIFF OMITTED] 67450A.324
    
    [GRAPHIC] [TIFF OMITTED] 67450A.325
    
    [GRAPHIC] [TIFF OMITTED] 67450A.326
    
    [GRAPHIC] [TIFF OMITTED] 67450A.327
    
    [GRAPHIC] [TIFF OMITTED] 67450A.328
    
    [GRAPHIC] [TIFF OMITTED] 67450A.329
    
    [GRAPHIC] [TIFF OMITTED] 67450A.330
    
    [GRAPHIC] [TIFF OMITTED] 67450A.331
    
    [GRAPHIC] [TIFF OMITTED] 67450A.332
    
    [GRAPHIC] [TIFF OMITTED] 67450A.333
    
    [GRAPHIC] [TIFF OMITTED] 67450A.334
    
    [GRAPHIC] [TIFF OMITTED] 67450A.335
    
    [GRAPHIC] [TIFF OMITTED] 67450A.336
    
    [GRAPHIC] [TIFF OMITTED] 67450A.337
    
    [GRAPHIC] [TIFF OMITTED] 67450A.338
    
    [GRAPHIC] [TIFF OMITTED] 67450A.339
    
    [GRAPHIC] [TIFF OMITTED] 67450A.340
    
    [GRAPHIC] [TIFF OMITTED] 67450A.341
    
    [GRAPHIC] [TIFF OMITTED] 67450A.342
    

</pre></body></html>
